HHS/OIG-Audit--"Type of Costs Incurred Under AIDS Grants Awarded to the Pennsylvania Department of Health, (A-03-93-00351)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Type of Costs Incurred Under AIDS Grants Awarded to the Pennsylvania Department
of Health," (A-03-93-00351)
July 19, 1994
Complete
Text of Report is available in PDF format (1.93 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that approximately 28 percent of Fiscal Year 1992 expenditures of AIDS grant funds by the
Pennsylvania Department of Health were for grant administration. Due to this excessive amount, we are recommending that
the Public Health Service (PHS) review AIDS grants awarded by all its components to determine the extent that AIDS funds
are used for administrative purposes. We are also recommending that PHS develop a performance measure for AIDS grants based
on the extent that AIDS funds are used for grant administration versus the provision of direct services. Finally, we are
recommending that PHS establish criteria for evaluating grant applicants and administering grants using a fixed fee-for-service
concept.